No. 19-755

 

IN THE

Supreme Court of the United States

ROBERT C. STEINER AND WENDY STEINER-REED,

Petitioners,
Vv.

UTAH STATE TAX COMMISSION,
Respondent.

On Petition for a Writ of Certiorari to the
Supreme Court of the State of Utah

BRIEF AMICUS CURIAE FOR THE
AMERICAN LEGISLATIVE EXCHANGE COUNCIL
IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,033 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 13, 2020.

L Mayr

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
